                                        SOCIAL SECURITY

MEMORANDUM

Date:      March 1, 2012                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Improper Payments (A-15-11-11197)


           We contracted with KPMG LLP to evaluate three of the Social Security Administration’s
           performance indicators (PI) established to comply with the Government Performance
           and Results Act of 1993. The attached final report presents the results of the evaluation
           of two PIs. For the PIs included in this audit, KPMG’s objectives were to:

           1. Comprehend and document the sources of data collected to report on the specified
              PI.
           2. Identify and test critical controls (both electronic data processing and manual) of
              systems from which the specified performance data were gathered.
           3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
              the underlying data for each of the specified PIs.
           4. Recalculate each measure to ascertain its accuracy.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                  Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION

   PERFORMANCE INDICATOR AUDIT:
        IMPROPER PAYMENTS


      March 2012   A-15-11-11197




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
MEMORANDUM

Date:      February 17, 2012

To:        Inspector General

From:      KPMG, LLP

Subject:   Performance Indicator Audit: Improper Payments (A-15-11-11197)


OBJECTIVES
The Government Performance and Results Act of 1993 (GPRA)1 seeks, among other
things, to improve the Government’s internal management, program effectiveness, and
public accountability by promoting a new focus on results, service quality, and customer
satisfaction. 2 Specifically, GPRA requires that the Social Security Administration (SSA)
establish performance indicators (PI) to measure or assess each program activity’s
relevant outputs, service levels, and outcomes. 3 GPRA also requires a description of
the means employed to verify and validate the measured values used to assess
program performance. 4

For this audit of SSA’s PIs for Fiscal Year (FY) 2010, Percent of Supplemental Security
Income (SSI) payments free of overpayment (O/P) and underpayment (U/P) error and
Percent of Old-Age, Survivors and Disability Insurance (OASDI) payments free of O/P
and U/P error, our objectives were to:

1. Comprehend and document the sources of data collected to report on the specified
   PIs.
2. Identify and test critical controls (both electronic data processing and manual) of
   systems from which the specified performance data were gathered.
3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
   the underlying data for each of the specified PIs.
4. Recalculate each measure to ascertain its accuracy.




1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C.,
and 39 U.S.C.).
2
    Pub. L. No. 103-62 § 2(a)(3) and (6), 107 Stat. 285.
3
    31 U.S.C. § 1115(a)(4).
4
    31 U.S.C. § 1115(a)(6).


Performance Indicator Audit: Improper Payments (A-15-11-11197)                                      1
This performance audit did not constitute an audit of financial statements in accordance
with generally accepted government auditing standards. KPMG was not engaged to,
and did not, render an opinion on SSA’s internal controls over financial reporting or
financial management systems (for purposes of Office of Management and Budget
Circular No. A-127, Financial Management Systems, July 23, 1993, as revised). KPMG
cautions that projecting the results of our evaluation to future periods is subject to the
risks that controls may become inadequate because of changes in conditions or
because compliance with controls may deteriorate.

BACKGROUND
We audited the following PIs, which were included in SSA’s FY 2010 Performance and
Accountability Report (PAR).

                  PI                                 FY 2010 Target             FY 2010 Actual 5
    Percent of SSI payments free                   O/P accuracy 91.6%          O/P accuracy 93.3%
    of O/P and U/P error 6                         U/P accuracy 98.8%          U/P accuracy 97.6%
    Percent of OASDI payments                      O/P accuracy 99.8%          O/P accuracy 99.6%
    free of O/P and U/P error 7                    U/P accuracy 99.8%          U/P accuracy 99.8%

SSA linked the PIs to its strategic objective 4.1: Curb Improper Payments and SSA’s
strategic goal 4: Preserve the Public’s Trust in SSA Programs. 8

SSI, authorized by Title XVI of the Social Security Act, 9 pays benefits to disabled adults
and children who have limited income and resources and to individuals who have
attained age 65 and older without disabilities who meet the financial limits. It is
designed to help aged, blind, and disabled people who have little or no income; and it
provides cash to meet basic needs for food, clothing, and shelter.

The Old-Age and Survivors (OASI) and Disability Insurance (DI) programs, authorized
by Title II of the Social Security Act, 10 are entitlement programs funded from trust funds,

5
 Actual results were not available until July 2011. SSA will report the FY 2010 actual results in the
FY 2011 PAR. KPMG audited the accuracy of the FY 2010 actual results.
6
    SSA’s FY 2010 PAR, p. 71, November 2010.
7
    SSA’s FY 2010 PAR, p. 72, November 2010.
8
 SSA, Annual Performance Plan for FY 2011 and Revised Final Performance Plan for FY 2010, p. 9,
February 2010. SSA, Revised Annual Performance Plan for FY 2012 and Revised Final Performance
Plan for FY 2011, p. 57.
9
    Social Security Act §§ 1601-1605, 42 U.S.C. §§ 1381-1385.
10
     Social Security Act § 201, 42 U.S.C. § 401.


Performance Indicator Audit: Improper Payments (A-15-11-11197)                                          2
which are supported by workers’ taxes. The OASI program provides monthly cash
retirement to workers and their dependents or, when workers die, to their survivors.
The DI program provides monthly benefits to workers and their dependents when
workers are determined to be disabled.

Individuals (or qualifying survivors) may become entitled under the OASI or DI programs
based on the individual’s taxable earnings during his or her lifetime. In addition, to
qualify for DI, a worker must have a physical or mental impairment that prevents them
from performing substantial gainful activity/work with earnings above a certain monthly
amount. 11

Each year, SSA reports payment accuracy rates for the OASI/DI (Title II) and SSI
(Title XVI) programs based on its stewardship reviews. SSA reports payments that
should not have been made or inaccurate payments that were made as improper.

The Office of Quality Performance (OQP) performs stewardship reviews to examine the
nonmedical elements in the Title II and XVI programs related to the payment accuracy
and entitlement/eligibility of benefit payments made during a sample period. Each
month, OQP selects a statistically valid national sample of OASI and DI beneficiaries
who received a payment(s) during the review period. For each sample selected, the
beneficiary or representative payee was interviewed; collateral contacts were made, as
needed; and all non-medical eligibility factors were redeveloped as of the current
sample month. SSI payment accuracy rates were determined by reviewing a
statistically valid national sample of the SSI recipient rolls, selected from individuals who
received a payment during the FY. 12

Title XVI Stewardship Sample Selection Procedures

Effective with the October 2003 sample, the Electronic Quality Assurance (eQA)
system, designed by Lockheed-Martin, was used to select all Title XVI samples. This
system replaced the processes that were used from FYs 1996 through 2003. Each
month, eQA selects a statistical sample of Title XVI recipients who received a payment
during a certain period of time.




11
     Social Security Act § 223, 42 U.S.C. § 423.
12
 See SSA OIG, The Social Security Administration’s Plan to Reduce Improper Payments Under
Executive Order 13520 (A-15-10-20163), September 30, 2010.


Performance Indicator Audit: Improper Payments (A-15-11-11197)                              3
The sample selection for a given sample month was automatically initiated after an
update referred to as the “computation date” was made to the Supplemental Security
Record. The approximate annual sample size for the Title XVI Stewardship Review
was 4,400.

Title II Stewardship Sample Selection Procedures

As of October 1, 2008, the sampling procedures for Title II reviews were converted to
eQA. The sample selection operation produced a regional sample in the eQA system
that identified cases selected for review and generated support material to facilitate the
review of the cases. If necessary, the Assistance and Insurance Program Quality
Branch (AIPQB) requests the Title II claims folders for the sampled Social Security
numbers (SSN) from the program service center in the respective jurisdiction. The Title
II stewardship review is an examination of all payments made on the sampled
beneficiaries’ SSNs. The sampled SSNs are treated as “accounts,” and all payments
associated with those accounts (that is, primary and auxiliary beneficiary payments) are
reviewed by looking at the claim’s entire history. Consequently, the reviewer
redevelops the eligibility factors of the beneficiaries on the sampled SSNs. This
redevelopment includes requesting evidence (for example, birth certificates) that must
be submitted to AIPQB and is retained in the electronic OQP data file.

SSA used a statistical approach to perform the sampling for the Title II and XVI data
and applied weights to the sample results to extrapolate them to the population for both
the Title II and XVI data. We evaluated the statistical approach used and the weighting
process to determine their adequacy, accuracy, reasonableness, completeness, and
consistency.

SSA calculated the PIs as follows.


   Percent of SSI/OASI and DI                 Total Weighted Overpayment Dollars
                                      = 1-
   payments free of O/P                            Total Weighted Dollars Paid

   Percent of SSI/OASI and DI
                                      = 1- Total Weighted Underpayment Dollars
   payments free of U/P
                                                 Total Weighted Dollars Paid




Performance Indicator Audit: Improper Payments (A-15-11-11197)                         4
RESULTS OF REVIEW
Our audit did not identify any significant findings related to the internal controls over the
systems supporting the PIs.

We reviewed user access controls for the SSA network and eQA and observed within eQA
that user access rights had been appropriately updated based on the information from the
annual user access review (see Appendix C for key internal controls).

In addition, our audit did not identify significant findings with the adequacy, accuracy,
reasonableness, completeness, and consistency of the underlying data for the PIs subject to
audit. We were able to recalculate the accuracy of the PIs without exception.

We reviewed the sampling and weighting procedures used to determine the OASDI and
SSI samples and determined that the processes appeared to be reasonable.

CONCLUSION
Based on the results of our audit, we believe the PI was adequate, accurate,
reasonable, complete, and consistent with the underlying data. In addition, we noted
that internal controls over the system supporting the PI were operating effectively.




Performance Indicator Audit: Improper Payments (A-15-11-11197)                            5
                                           Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Flowcharts and Process Narrative

APPENDIX D – Agency Comments




Performance Indicator Audit: Improper Payments (A-15-11-11197)
                                                                      Appendix A

Acronyms
AIPQB           Assistance and Insurance Program Quality Branch
DI              Disability Insurance
eQA             Electronic Quality Assurance
FO              Field Office
FY              Fiscal Year
GPRA            Government Performance and Results Act of 1993
iESI            Internet and Intranet Enterprise Security Interface
LAN             Local Area Network
MBR             Master Beneficiary Record
OASDI           Old-Age, Survivors and Disability Insurance
OASI            Old-Age and Survivors Insurance
OIG             Office of the Inspector General
OQP             Office of Quality Performance
O/P             Overpayment
PAR             Performance and Accountability Report
PI              Performance Indicator
Pub. L. No.     Public Law Number
SSA             Social Security Administration
SSI             Supplemental Security Income
SSN             Social Security Number
SSR             Supplemental Security Record
U.S.C.          United States Code
U/P             Underpayment




Performance Indicator Audit: Improper Payments (A-15-11-11197)
                                                                                  Appendix B
Scope and Methodology
We obtained an understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act of 1993 (GPRA)1 business processes related
to performance indicators (PI), Percent of Supplemental Security Income payments free
of overpayment (O/P) and underpayment (U/P) error and Percent of Old-Age, Survivors
and Disability Insurance payments free of O/P and U/P error. Our understanding was
obtained through research and interviewing key SSA personnel from the Office of
Quality Performance (OQP).

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following.

   Reviewed the Annual Performance Plan for FY 2011 and Revised Final
    Performance Plan for 2010 to obtain an understanding of the FY 2010 PIs.

   Reviewed prior Office of the Inspector General (OIG) and Government
    Accountability Office reports related to SSA’s PIs.

   Reviewed OIG reports related to SSA’s Plan to Reduce Improper Payments and
    Reporting of High-Dollar Overpayments Under Executive Order 13520.

   Reviewed applicable laws, regulations, and SSA policy.

   Flowcharted the processes (see Appendix C).

   Identified and tested key controls related to manual or basic computerized
    processes (spreadsheets, databases, etc.).

   Conducted and evaluated tests of the automated and manual controls within and
    surrounding each of the critical applications to determine whether identified key
    controls were adequate to provide and maintain reliable data used in measuring the
    specific PI.

   Identified attributes, rules, and assumptions for each defined data element or source
    document.

   Reviewed the process for controlling access to the datasets and storing the PI data
    as well as tested the appropriateness of the access privileges granted to the
    datasets for a selection of SSA personnel.



1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C.,
and 39 U.S.C.).

Performance Indicator Audit: Improper Payments (A-15-11-11197)                                      B-1
   Determined the adequacy, accuracy, reasonableness, completeness, and
    consistency of performance data reported in SSA’s Fiscal Year 2011 Performance
    and Accountability Report.

   Assessed the completeness and accuracy of the data to determine their reliability as
    they pertain to the audit objectives.

   Assessed the sample selection methodology for Supplemental Security Income
    (SSI) and Old-Age, Survivors and Disability Insurance (OASDI) Stewardship case
    files.

   Assessed the weighting methodology used to extrapolate the OASDI and SSI
    samples to the entire population.

   Re-calculated the payment accuracy rate, including case weights for overpayment
    and underpayments.

We conducted our performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives.

We determined that the data used in the report is sufficiently reliable and believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




Performance Indicator Audit: Improper Payments (A-15-11-11197)                             B-2
                                                                                                                                     Appendix C
Flowchart and Process Narrative
                                          Data Flow Diagram - Performance Measure 4.1c and 4.1d:
                        4.1c Percent of Supplemental Security Income payments free of overpayment (O/P) and underpayment
                                                                    (U/P) error.

                         4.1d Percent of Old-Age, Survivors, and Disability Insurance payments free of overpayment (O/P) and
                                                              underpayment (U/P) error.

                           Houses several databases
                           which contain Improper                          System
                           Payment data including:                        Mainframe
                           •   SSR                                                                                                     Control Point (1):
                                                                              (1)
                           •   MBR                                                                                                   Network - User Access
                                                                                                                                         Credentials




                                             SSI                                                           OASDI
 Cases are pulled for certain              A scheduled monthly                                                                        SSA Network
   criteria – the cases are               batch job retrieves data                              OQP Systems runs a
  reviewed and during that                  from the SSR and                                     process to extract
   review it is determined                  populates the eQA                                  records from the MBR.
   whether or not improper                       database.                                              (2b)
 payments have been paid.                          (2a)




                                  eQA assigns a random                 eQA automatically
                              number to each case so that               selects samples
                                                                       and populates the                             eQA               Control Point (2):
                               there is an equal chance of
                                                                       eQA database via                                                eQA User Access
                                 each case being chosen                                                                (4)
                                                                       a built in program.
                                                                              (3)



                                                   Scheduled Nightly
        If data from one case in eQA                Batch processes
                                                    copy the sample                                 Employees gather information as to why
         is changed, the entire set of
                                                      cases to the                                    the payee was improperly paid and
        sample cases from the period
                                                       reporting                                    manually input data into each case that
            will be recopied into the
                                                       database                                     was part of the random sample in eQA.
               reporting database
                                                             (6)                                                       (5)


                                                                                                              Control Point (3):
                                                                                               Each case is manually reviewed for accuracy and
                   Control Point (4):                                                             completeness and cleared by managers.
                  Reporting Database                  Reporting
                                                      Database
                                                             (7)
           Is updated until the end of
          the reporting period at which
              time it will be locked.




                                                 Hyperion pulls data                         Hyperion reports are
                                                 from the reporting                             extracted into
                                                    database to                              Stewardship Reports.
                                                  generate reports.                                  (9)
                                                             (8)




Performance Indicator Audit: Improper Payments (A-15-11-11197)                                                                                               C-1
Process Narrative
1. The system mainframe houses several databases that contain Title II and XVI case
   data. Two of the databases are the Master Beneficiary (MBR) and Supplemental
   Security (SSR) Records, which house data for the Old-Age, Survivors and Disability
   Insurance (OASDI) and Supplemental Security Income (SSI) programs, respectively.

Control Point 1 – Network User Access Credentials

2. A unique User Name and Password are required to access the SSA Network. Users
   must first authenticate themselves to the SSA Network by entering their unique user
   name and password at the Windows login screen.

3. Collecting Improper Payment data from mainframe databases:
   a. SSA runs scheduled monthly SSI batch jobs for certain criteria to pull cases from
      the SSR to collect improper payment data. Office of Quality Performance (OQP)
      employees review these cases and determine whether an improper payment has
      been made.
   b. For OASDI, OQP systems personnel run a process to extract records from the
      MBR. OQP employees review these cases and determine whether an improper
      payment has been made.

4. Electronic Quality Assurance (eQA) automatically selects samples via a program
   built into eQA. eQA assigns a random number to each case so there is an equal
   chance of each case being chosen and then selects a predetermined number of
   samples.

5. The selected cases are populated into the eQA database.

Control Point 2 – eQA User Access

   a. A Unique Username and Password are required to access eQA.
       i.   eQA uses the Internet and Intranet Enterprise Security Interface (iESI [web
            applications] /ESI [client server]) to authenticate users. The ESI is a security
            software application that synchronizes Local Area Network (LAN) Windows
            NT passwords with SSA Mainframe - Top Secret Passwords.
       ii. There is no separate login screen for eQA. Login credentials automatically
            synchronize with the SSA Mainframe – Top Secret Passwords by ESI upon
            loading the eQA application.
       iii. Access to eQA is limited to OQP employees.


   b. SSA approves user access to eQA. User access is role-based. Roles grant the
      user privileges to work within specified tabs of eQA. SSA maps roles to
      functional area by region.

Performance Indicator Audit: Improper Payments (A-15-11-11197)                           C-2
   c. Employees are limited to view only a case for their respective region. The eQA
      Helpdesk eliminated the need for regional employees to have the Central Office
      SSI View role. Regional employees should now have the regional SSI Form
      View role.

   d. Regional administrators are able to change roles for employees in their region
      and view case information, but are not able to manipulate case information.

   e. Administrative access to eQA is restricted to the appropriate personnel.
      Reviewers have limited access within eQA. A few individuals from the Central
      Office are granted access to the “Administrator” tab that allows them to define
      studies.

   f. eQA user access is reviewed on an annual basis. The eQA Helpdesk performs
      annual access reviews to ensure appropriate access. The most sensitive roles
      are reviewed twice yearly while regional roles are reviewed annually. An audit
      trail of the following process is retained.

       i.     An email containing a list of users and roles is sent to each regional
              administrator.
      ii.     Each regional administrator reviews the list and responds to the Helpdesk to
              remove any users no longer requiring access to a specific eQA Program
              Role.
      iii.    The Helpdesk confirms the removal of access. Changes to employee roles
              are logged into eQA.

Control Point 3 - Each case is manually reviewed for accuracy and completeness
and cleared by managers.

6. Employees gather information as to why a payee was improperly paid and manually
   input data into eQA for each case that was a part of the random sample. The
   following steps are taken to ensure that employees are accurately reviewing the
   cases:

   a. A CADRE review (a review by a group of experts) is performed for 3 percent of
      cases. A CADRE review is performed after the consistency review and is used
      to ensure that cases are being accurately reviewed:
       i.    A predetermined percentage of cases are secretly flagged. Once cases are
             reviewed and cleared at the field office, the secretly flagged CADRE cases
             will be reviewed by OQP.
       ii. Each case has predetermined logic and tasks that must be completed. These
             can be viewed in the “Tasks” tab of eQA.




Performance Indicator Audit: Improper Payments (A-15-11-11197)                         C-3
       iii. If OQP identifies a deficiency, they send their “feedback” to the field office.
          Once they send the feedback, the information is sent to the Seattle Region for
          follow up with the field office to ensure the deficiency is resolved.

7. Scheduled nightly batch processes copy the sample cases to the reporting
   database. If data from one case in eQA is changed, the entire set of sample cases
   from the period will be recopied into the Reporting Database.

8. The Reporting Database is updated until the end of the reporting period when it will
   be locked.

Control Point 4 – Reporting Database

   a. At the end of the reporting period, the Reporting Database is locked, and case
      data can no longer be manipulated.
   b. Only a few authorized individuals have the ability to unlock the reporting
      database after a reporting period has ended.

9. Oracle Enterprise Performance Management System (formerly Hyperion) reporting
   and analysis tool, pulls data from the reporting database to generate reports for the
   performance indicator.

10. Oracle Enterprise Performance Management System reports are extracted into
    stewardship reports.




Performance Indicator Audit: Improper Payments (A-15-11-11197)                            C-4
                                                                                        Appendix D

           Agency Comments



                                              SOCIAL SECURITY

MEMORANDUM


Date:      February 15, 2012                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, "Performance Indicator Audit: Improper
           Payments" (A-15-11-11197)—INFORMATION

           Thank you for the opportunity to review the draft report. We agree with the report’s
           findings/conclusions and have no additional comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Teresa Rojas at (410) 966-7284.

           Attachment




           Performance Indicator Audit: Improper Payments (A-15-11-11197)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
